                    February 29, 2000

                    RUDOLPH K. UMSCHIED
                    VICE PRESIDENT, FACILITIES

                    SUBJECT:	 Management Advisory Report - Roofing
                              Product at United States Postal Facilities
                              (Report Number FA-MA-00-002)

                    This report presents the results of our review of an Office of
                    Inspector General (OIG) Hotline allegation concerning a
                    newly installed roof of the Houston Processing and
                    Distribution Center. Specifically, the complaint alleged that
                    six months after the installation of a new roof, it was
                    replaced for an additional $1 million.

Results in Brief    A preliminary review disclosed that the hotline complaint
                    was not accurate. Specifically, a general contractor had
                    installed a new roof at the Houston Processing and
                    Distribution Center using defective roofing product;
                    however, the roof was replaced under warranty at no cost.
                    We offered management two suggestions to ensure that the
                    Postal Service does not incur cost for repairing roofs where
                    the defective roofing product was used. Management
                    agreed with our conclusion and has planned corrective
                    actions that are responsive to our suggestions.

Objective, Scope,   The objective of the review was to determine the validity of
and Methodology     the hotline complaint. We conducted interviews with the
                    Houston, Texas manager of Administrative Services, and
                    the Memphis Facilities Office project manager. We also
                    reviewed contract files and other relevant documents. This
                    review was conducted from May 1999 through
                    February 2000, in accordance with the President’s Council
                    on Integrity and Efficiency, Quality Standards for
                    Inspections.
Roofing Product                                                                      FA-MA-00-001
 at United States Postal Facilities




Defective Roofing               The review confirmed that in June 1995 a general roofing
Product                         contractor installed a new roof on the Houston Processing
Observations                    and Distribution Center. OIG discussions with the
                                Administrative Service Office and the project manager
                                revealed that Postal Service staff had conducted several
                                inspections of the center's roof and were aware of problems
                                with the roofing product that caused water to infiltrate areas
                                of the roof. Postal Service personnel negotiated with the
                                roofing product distributor, who agreed that the use of a
                                defective roofing product caused the problem. As a result,
                                the roof was repaired by the distributor and was covered
                                under the warranty, at no additional cost to the Postal
                                Service.

                                The contract to repair the roof included a twenty-year no
                                dollar limit gold shield roofing system guarantee, effective
                                February 1998. This guarantee warrants repairing any
                                leaks that are attributed to defective workmanship and/or
                                materials.

                                The distributor's database revealed that over the past
                                decade, roofing contractors used the same type of product
                                to repair over five hundred postal facilities. More
                                importantly, further analysis by the OIG revealed that
                                between 1994 and 1999, the roofing product was used on at
                                least 125 postal facilities nationwide. Without further
                                complaints or roof inspections, the Postal Service cannot
                                determine which of these facilities would be affected by the
                                defective-roofing product. Attached is a list of the 125
                                postal facilities (Appendix A), in which the defective roofing
                                product may have been installed.

                                To ensure that the Postal Service does not incur costs to
                                repair roofs where the defective roofing product was used,
                                Postal Service management should notify the managers of
                                the 125 facilities of the defective roofing product and
                                advised them of related warranty information.

Suggestions 	                   We suggest that the vice president, Facilities direct the
                                manager, Major Facilities Office to:

                                1. Issue a Customer Alert Notice to managers of the 125
                                   postal facilities, where the defective roofing product was
                                   used to advise them of potential problems associated


                                                    2
                                         Restricted Information
Roofing Product                                                                         FA-MA-00-001
 at United States Postal Facilities


                                      with this product and the availability of repairs under
                                      warranty.

                                2. Seek recovery from the roofing product distributor any
                                   costs already incurred to repair roofs on facilities where
                                   the defective roofing product was used.

Management’s 	                  The vice president, Facilities, indicated agreement with our
Comments 	                      suggestions and stated that the report will be forwarded to
                                the eleven Facilities Service Offices, requesting that they
                                pass the information to the respective area offices for
                                appropriate action. Management’s comments, in their
                                entirety, are included in Appendix B.

Evaluation of                    Management’s comments are responsive to our
Management’s                     suggestions and the planned actions should ensure that the
Comments                         Postal Service does not incur costs to repair roofs where the
                                 defective roofing product was used.

                                 We appreciated the cooperation and courtesies provided by
                                 your staff during the review. If you have any questions,
                                 please contact                ,                          ,
                                 or me at (703) 248-2300.


                                 //Signed//
                                 Sylvia L. Owens
                                 Assistant Inspector General
                                   For Revenue/Cost Containment

                                 cc: James McGuire
                                     Ronnie Eley
                                     Walter L. Qualls
                                     John R. Gunnels




                                                       3
                                            Restricted Information
Roofing Product                                                              FA-MA-00-001
 at United States Postal Facilities




                       APPENDIX A. LISTING OF POSTAL FACILITIES 


Number of                                                                 Actual Roof
Locations                             Postal Facilities                 Square Footage
                                                                            in 00’s

       1         United States Post Office Gibbsboro St, New Jersey          264
       2         United States Post Office Atlantic Ave, Florida             336
       3         Oceanside Main Post Office, California                      309
       4         Las Cruces Post Office, New Mexico                          285
       5         Adelanto Main Post Office, California                       204
       6         Southside Branch Post Office, Florida                       305
       7         Cross City Post Office, Florida                              68
       8         McLean Post Office, Virginia                                 30
       9         Nashville Post Office VMF, Tennessee                        164
      10         Tampa Station Post Office, Florida                          230
      11         Gulfwinds Post Office, Florida                              280
      12         United States Post Office Via Ancho Rd, Florida             313
      13         Waycross GMF Post Office, Georgia                            36
      14         Coco River Post Office, Florida                             347
      15         Doral Branch Post Office, Florida                           217
      16         Daphine Post Office, Alabama                                88
      17         Powder Springs Post Office, Georgia                         227
      18         United States Post Office E. Tenth St, Texas                 62
      19         Main Post Office N. Madden St., Texas                       36
      20         Sheridan Post Office 67 & Gore St., Oklahoma                205
      21         Howell Mill Post Office, Georgia                            260
      22         Tri City Post Office, Florida                               280
      23         Eldorado Station Post Office, New Mexico                    265
      24         Northcross Post Office, Texas                               229
      25         Warrenton Post Office, Georgia                               25
      26         Hobbs Post Office, New Mexico                               280
      27         McMinville Tenn Post Office, Tennessee                       58
      28         Julius Melcher Post Office, Texas                           198
      29         United States Post Office W. Washington St,                 841
                 Washington
      30         Survey Creek Post Office, Florida                           260
      31         Blackwood Post Office, New Jersey                           151
      32         Indianola Post Office, Indiana                               64
      33         First Colony Post Office, Texas                             300
      34         United States Post Office Philadelphia, Pennsylvania       1530
      35         Main Post Office Milgen Rd, Georgia                         880
      36         Westland Station Post Office, Florida                       346
      37         Tebeau St. Post Office, Georgia                             282


                                                   4
                                        Restricted Information
Roofing Product                                                    FA-MA-00-001
 at United States Postal Facilities




      38         Gulf Breeze Post Office, Florida                    85
      39         Lecanto Post Office, Florida                       385
      40         Tallahassee, Post Office, Florida                 1262
      41         St. Petersburgh, Post Office, Florida              312
      42         Houston, GMF                                      2272
      43         Bulk Mail Center Byberry Rd, Pennsylvania         3200
      44         McAllen GMF, Texas                                 591
      46         Northside Post Office, Alabama                     168
      47         San Bruno Post Office, California                  225
      48         Lutz Post Office (addition) HWY 41, Florida         14
      49         Discovery Bay S Post Office, California             94
      50         St. Mary's Main Post Office, Georgia               166
      51         United States Post Office Mercer St, New Jersey    158
      52         4 Hills Post Office, New Mexico                    228
      53         Panther Creek Post Office, Texas                   314
      54         Hampton Post Office, Georgia                       190
      55         Encinitas Main Post Office, California             280
      56         Budd Lake Post Office, New Jersey                  100
      57         County Line Post Office, Florida                    87
      58         Lamarque Post Office, Texas                        101
      59         N Valley Annex Post Office, New Mexico             203
      60         Colonial Park Post Office, New York                 33
      61         Fenkell St. Post Office, Michigan                   21
      62         Eastwood Station Post Office, Texas                235
      63         Norristown Post Office, Pennsylvania               118
      64         West Station Post Office, Alabama                  200
      65         Dublin Post Office, Virginia                       119
      66         United States Post Office Ramona, California       223
      67         New Batesville Post Office, Mississippi            183
      68         Van Buren Post Office, Arkansas                    219
      69         Cahaba Heights Post Office, Alabama                224
      70         United States Post Office Petsmart Westminster,    723
                 Colorado
      71         Ponte Vedra Beach Post Office, Florida            242
      72         Cypress Post Office, Texas                        350
      73         Starkville Main Post Office, Mississippi          260
      74         Monticello Post Office, New York                   20
      75         Ellenboro Post Office, NC                          34
      76         Grinnell Post Office, Indiana                     60
      77         United States Post Office Dogwood Dr, Florida     122
      78         Mt. Juliet Post Office, Tennessee                 192
      79         Manville Post Office, New Jersey                   88
      80         South Station Post Office,Tennessee               154
      81         Little River Post Office, Florida                 240
      82         United States Post Office Adams St., Florida      315

                                                 5
                                      Restricted Information
Roofing Product                                                         FA-MA-00-001
 at United States Postal Facilities




      83         Morrisania Post Office, New York                       45
      84         United States Post Office Gray Lane E. Hampton, New    75
                 York
      85         United States Post Office Sth,Fesslers Ln, Tennessee    75
      86         Milltown Post Office, New Jersey                        92
      87         Green Acres Br.Post Office, Florida                    370
      88         Middletown Post Office, Kentucky                       266
      89         Bergenfield Post Office, New Jersey                    210
      90         United States Post Office Livernois, Michigan          218
      91         Post Office & Book Store, 112 St, New York              74
      92         Chapel Lakes Post Office, Florida                      240
      93         Destin Post Office, Florida                             97
      94         Tamarac Post Office, Florida                           258
      95         Pflugerville Post Office, Texas                        270
      96         New Albany Post Office, Mississippi                    130
      97         New Port Post Office, Tennessee                        112
      98         Main Post Office 10th St., Alabama                     317
      99         Main Post Office, Florida Blvd, Louisiana              900
     100         Sand Hills Post Office, South Carolina                 166
     101         United States Post Office Brasher Rd, New Mexico       348
     102         United States Post Office N.7th St., Arizona             8
     103         Sylacauga Post Office, Alabama                         147
     104         Main Post Office Glover Ave, Alabama                   229
     105         United States Post Office Van Born St., Michigan       267
     106         United States Post Office E. Jefferson St, Indiana      28
     107         Georgetown Main Post Office, South Carolina            180
     108         Alhambra Main Post Office, California                  246
     109         Andalusia Post Office, Alabama                         135
     110         Daytona Beach Post Office, Florida                     122
     111         Dumas Main Post Office, Texas                          104
     112         Irwinton Post Office, Georgia                           25
     113         Aztec Main Post Office, New Mexico                     140
     114         Ft. Pierce Post Office, Florida                        180
     115         Hialeah Br. Post Office, Florida                       258
     116         Delray Post Office, Florida                             93
     117         Melbourne Post Office                                  250
     118         Moss Point Post Office, Mississippi                    300
     119         United States Post Office Mayfield, Tennessee          205
     120         Show Low Post Office, Arizona                          112
     121         United States Post Office Trees Annex, California      204
     122         United States Post Office, Vine St., Illinois          120
     123         United States Post Office Ardmore Station, Alabama     225
     124         United States Post Office Hallendale, Florida          271
     125         United States Post Office Riverview, Florida           270


                                                 6
                                      Restricted Information
Roofing Product                                                FA-MA-00-001
 at United States Postal Facilities




                         APPENDIX B. MANAGEMENT’S COMMENTS




                                                 7
                                      Restricted Information
Roofing Product                                                FA-MA-00-001
 at United States Postal Facilities




Major Contributors to
This Report




                                                 8
                                      Restricted Information
